            EVALUATION REPORT

                   Inspector General’s Assessment of the
                 Most Serious Management and Performance
                           Challenges Facing NRC

                      OIG-07-A-20 September 28, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         September 28, 2007




MEMORANDUM TO:             Chairman Klein



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                           SERIOUS MANAGEMENT AND PERFORMANCE
                           CHALLENGES FACING THE NUCLEAR REGULATORY
                           COMMISSION (OIG-07-A-20)


The Reports Consolidation Act of 2000 requires the Inspector General of each Federal
agency to annually summarize what he or she considers to be the most serious
management and performance challenges facing the agency and to assess the
agency’s progress in addressing those challenges. In accordance with the Act,
I identified eight management and performance challenges that I consider to be the
most serious. The list of eight challenges reflects the consolidation of the prior
challenges 4 and 9 resulting in the following description for new challenge 4: Ability to
modify regulatory processes to meet a changing environment, specifically the potential
for a nuclear renaissance.

We appreciate the cooperation extended to us during this evaluation. The agency
provided comments on this report, which have been incorporated, as appropriate. If
you have any questions or comments about this report, please feel free to contact
Stephen D. Dingbaum, Assistant Inspector General for Audits, at 415-5915 or me at
415-5930.

cc:   Commissioner Jaczko
      Commissioner Lyons
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




EXECUTIVE SUMMARY

   BACKGROUND

          The Reports Consolidation Act of 2000 (the Act) requires the
          Inspector General (IG) of each Federal agency to annually
          summarize what he or she considers to be the most serious
          management and performance challenges facing the agency and to
          assess the agency’s progress in addressing those challenges.

   PURPOSE

          In accordance with the Act, the IG at the Nuclear Regulatory
          Commission (NRC) updated what he considers to be the most
          serious management and performance challenges facing NRC.
          As part of the evaluation, the Office of the Inspector General staff
          sought input from NRC’s Chairman, Commissioners, and NRC
          management to obtain their views on what challenges the agency is
          facing and what efforts the agency has taken to address previously
          identified management challenges.

   RESULTS IN BRIEF

          The IG identified eight challenges that he considers are the most serious
          management and performance challenges facing NRC. The challenges
          identified represent critical areas or difficult tasks that warrant high-level
          management attention.

          In addressing this year’s challenges we combined the prior challenge
          number 4, Ability to modify regulatory processes to meet a changing
          environment and the prior challenge number 9, Ability to meet the
          demand for licensing new reactors. The consolidation of these
          challenges resulted in the following description for new challenge 4:
          Ability to modify regulatory processes to meet a changing environment,
          specifically the potential for a nuclear renaissance. We combined the
          two challenges because the anticipated workload associated with
          preparing to receive and then review new reactor license applications
          will strain the agency’s current resources and intensify other challenges
          in NRC’s regulatory environment.

          The chart that follows provides an overview of the eight most
          serious management and performance challenges as of
          September 28, 2007.




                                               i
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




         Most Serious Management and Performance Challenges
              Facing the Nuclear Regulatory Commission *
                        As of September 28, 2007
                 (as identified by the Inspector General)

Challenge 1        Protection of nuclear material used for civilian purposes.


Challenge 2        Appropriate handling of information.


Challenge 3        Development and implementation of a risk-informed and
                   performance-based regulatory approach.

Challenge 4        Ability to modify regulatory processes to meet a changing
                   environment, specifically the potential for a nuclear
                   renaissance.

Challenge 5        Implementation of information technology.


Challenge 6        Administration of all aspects of financial management.


Challenge 7        Communication with external stakeholders throughout NRC
                   regulatory activities.

Challenge 8        Managing human capital.


* The most serious management and performance challenges are not
ranked in any order of importance.

     CONCLUSION

              The eight challenges contained in this report are distinct, yet are
              interdependent to accomplishing NRC’s mission. For example, the
              challenge of managing human capital affects all other management
              and performance challenges.

              The agency’s continued progress in taking actions to address the
              challenges presented should facilitate successfully achieving the
              agency’s mission and goals.



                                                  ii
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




ABBREVIATIONS AND ACRONYMS

          CFR                Code of Federal Regulations

          CR                 continuing resolution

          DOE                Department of Energy

          FOIA               Freedom of Information Act

          HSPD               Homeland Security Presidential Directive

          IG                 Inspector General

          IT                 information technology

          MC&A               material control and accounting

          NMMSS              Nuclear Materials Management and Safeguards
                             System

          NRC                Nuclear Regulatory Commission

          NSTS               National Source Tracking System

          OIG                Office of the Inspector General

          PII                personally identifiable information

          SGI                safeguards information




                                              iii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          iv
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ................................................... iii

    I.       BACKGROUND .............................................................................1

    II.      PURPOSE......................................................................................1

    III.     EVALUATION RESULTS ...............................................................1

    Challenge 1            Protection of nuclear material used for civilian
                           purposes ........................................................................4

    Challenge 2            Appropriate handling of information ...............................6

    Challenge 3            Development and implementation of a risk-
                           informed and performance-based regulatory
                           approach ........................................................................8

    Challenge 4            Ability to modify regulatory processes to meet a
                           changing environment, specifically the potential for
                           a nuclear renaissance ..................................................10

    Challenge 5            Implementation of information technology....................12

    Challenge 6            Administration of all aspects of financial
                           management ................................................................14

    Challenge 7            Communication with external stakeholders throughout
                           NRC regulatory activities..............................................16

    Challenge 8             Managing human capital .............................................17

    IV. CONCLUSION................................................................................19

    APPENDIX

    A.         SCOPE AND METHODOLOGY ................................................21




                                                     v
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          vi
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




I.     BACKGROUND

              On January 24, 2000, Congress enacted the Reports Consolidation
              Act of 2000, requiring Federal agencies to provide financial and
              performance management information in a more meaningful and
              useful format for Congress, the President, and the public. The Act
              requires the Inspector General (IG) of each Federal agency to
              annually summarize what he or she considers to be the most
              serious management and performance challenges facing the
              agency and to assess the agency’s progress in addressing those
              challenges.


II.    PURPOSE

              In accordance with the Act’s provisions, the IG at the Nuclear
              Regulatory Commission (NRC) updated what he considers to be
              the most serious management and performance challenges facing
              NRC. The IG evaluated the overall work of the Office of the
              Inspector General (OIG), the OIG staff’s general knowledge of
              agency operations, and other relevant information to develop and
              update his list of management and performance challenges.

              In addition, OIG sought input from NRC’s Chairman,
              Commissioners, management and staff to obtain their views on
              what challenges the agency is facing and what current and future
              efforts the agency has taken to address previously identified
              management and performance challenges.


III.   EVALUATION RESULTS

              The NRC’s mission is to “License and regulate the Nation’s civilian
              use of byproduct, source, and special nuclear materials to ensure
              adequate protection of public health and safety, promote the
              common defense and security, and protect the environment.” Like
              other Federal agencies, NRC faces management and performance
              challenges in carrying out its mission.

              Determination of Management and Performance Challenges
              Congress left the determination and threshold of what constitutes a
              most serious management and performance challenge to the
              discretion of the Inspectors General. As a result, the IG applied the
              following definition in identifying challenges:



                                                  1
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




Serious management and performance challenges are mission critical areas or
programs that have the potential for a perennial weakness or vulnerability that,
without substantial management attention, would seriously impact agency
operations or strategic goals.

              Based on this definition, the IG revised his list of the most serious
              management and performance challenges facing NRC. The
              challenges identified represent critical areas or difficult tasks that
              warrant high-level management attention. The following chart
              provides an overview of the eight management challenges. The
              sections that follow the chart provide more detailed descriptions of
              the challenges, descriptive examples related to the challenges, and
              examples of efforts the agency has taken or are underway to
              address the challenges.

          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission *
                         As of September 28, 2007
                  (as identified by the Inspector General)

Challenge 1         Protection of nuclear material used for civilian purposes.

Challenge 2         Appropriate handling of information.

Challenge 3         Development and implementation of a risk-informed and
                    performance-based regulatory approach.

Challenge 4         Ability to modify regulatory processes to meet a changing
                    environment, specifically the potential for a nuclear
                    renaissance.

Challenge 5         Implementation of information technology.

Challenge 6         Administration of all aspects of financial management.

Challenge 7         Communication with external stakeholders throughout NRC
                    regulatory activities.

Challenge 8         Managing human capital.

* The most serious management and performance challenges are not
ranked in any order of importance.




                                                  2
            Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



Changes to Management Challenges

                  This year’s challenges are essentially the same as last year, with
                  two exceptions.

                            Description Change - Challenge 2

                  Last year’s challenge 2: Protection of information was changed this
                  year to Appropriate handling of information. The focus has been
                  broadened to include emphasis on the importance of releasing
                  information that the public has a right to know while protecting
                  sensitive information that should not be released.

                            Integrating Challenges 4 and 9

                  Last year’s challenge 91 and challenge number 42 were combined
                  this year to form challenge number 4 which reads, Ability to modify
                  regulatory processes to meet a changing environment, specifically
                  the potential for a nuclear renaissance.

                  The prior two challenges were combined because the anticipated
                  workload associated with preparing to receive and then review new
                  reactor license applications will strain the agency’s current
                  resources and intensify other challenges in NRC’s regulatory
                  environment. While responding to the emerging demands
                  associated with regulating new reactors, NRC must also sustain
                  technical quality in carrying out its current regulatory
                  responsibilities.




1
    2006 Management Challenge 9: Ability to meet the demand for licensing new reactors.
2
 2006 Management Challenge 4: Ability to modify regulatory processes to meet a changing
environment.


                                                      3
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 1
Protection of nuclear material used for civilian purposes.

              NRC grants licenses for the possession and use of radioactive
              materials and establishes regulations to govern the possession and
              use of those materials. NRC’s regulations require that certain
              materials licensees have extensive material control and accounting
              programs as a condition of their licenses. All other licensees
              (including those requesting authorization to possess small
              quantities of special nuclear materials) must develop and
              implement plans that demonstrate a commitment to accurately
              control and account for radioactive materials.

              The issues related to this challenge and the agency’s actions to
              address each issue include the following:

              •    Issue: Ensure that radioactive material is adequately protected
                   to preclude it from being used for malicious purposes.

                        –     Action: NRC is enhancing its materials licensing
                              processes, which include a new policy that requires on-
                              site visits before NRC issues new material licenses; is
                              examining existing licenses to determine their
                              legitimacy; and is forming a working group to update
                              and revise existing materials guidance.

              •    Issue: Develop and implement a system to ensure the accurate
                   tracking of byproduct material, especially those materials with
                   the greatest potential to impact public health and safety.

                        –     Action: NRC has published its final rulemaking on the
                              National Source Tracking System (NSTS) and is
                              working to develop and implement systems [NSTS and
                              Web-Based Licensing] for tracking materials and
                              licenses.

              •    Issue: Ensure reliable control and accounting of special
                   nuclear materials in the NRC and Department of Energy’s
                   (DOE) jointly managed Nuclear Materials Management and
                   Safeguards System (NMMSS).

                            – Action: NRC has taken steps to ensure that
                              licensees comply with material control and accounting
                              (MC&A) requirements. For example, revisions to
                              Inspection Manual Chapter 2800 and Temporary


                                                  4
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                         Instruction 2515/154 required that NMMSS book
                         balances be compared to actual inventories
                         possessed by reactor licensees as well as licensees
                         holding small amounts of special nuclear materials.


      •    Issue: Provide adequate inspection to verify the control and
           accountability of special nuclear materials at licensee sites.

                    – Action: The staff proposed an MC&A rulemaking
                      plan early in 2007 that will enhance MC&A
                      regulations, inspections, and licensing. Among the
                      enhancements are requirements to conduct periodic
                      inspections to verify that material licensees comply
                      with MC&A requirements.




                                          5
            Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 2
Appropriate handling of information.

                  NRC is required to appropriately protect and withhold information
                  from public disclosure for reasons of security, personal privacy, or
                  commercial or trade secrets protection. The agency also has a
                  duty to release information the public has a right to know. NRC’s
                  goal is to strike an appropriate balance between a regulatory
                  process that is open to the public and the protection from disclosure
                  of sensitive information, which would be useful to potential
                  adversaries. NRC traditionally has given the public access to a
                  significant amount of information about the facilities and materials
                  the agency regulates.3 The Atomic Energy Act, subsequent
                  legislation, and various NRC regulations have given the public the
                  right to participate in the licensing and oversight process for NRC
                  licensees.

                  The issues related to this challenge and the agency’s actions to
                  address each issue include the following:

                  •    Issue: Ensure that information is released to the public that the
                       public has a right to know.

                            –     Action: After receiving congressional criticism, NRC
                                  gave the public access to documents associated with a
                                  uranium spill that had been previously designated as
                                  Official Use Only (not releasable to the public). Further,
                                  the Commission is reconsidering its policy and criteria
                                  for withholding information from the public.

                  •    Issue: Appropriately protect and withhold information from
                       public disclosure, especially information related to personally
                       identifiable information (PII), security related information and
                       safeguards information (SGI).

                            –     Action: NRC has conducted searches and promptly
                                  removed all documents containing PII from public
                                  availability after inadvertent disclosure. In addition,
                                  NRC has established the PII Task Force to identify how
                                  PII is used and to develop policies and procedures to




3
    Openness has been and remains a cornerstone of NRC’s regulatory philosophy.


                                                      6
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                      protect this information while minimizing the impact on
                      agency operations. NRC’s PII Task Force also
                      developed a draft breach notification policy as required
                      by the Office of Management and Budget.

                –     Action: NRC issued SGI Fingerprinting Orders that
                      require any person who seeks or obtains access to SGI
                      to undergo a Federal Bureau of Investigation
                      identification and criminal history check based on that
                      individual’s fingerprints.




                                          7
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 3
Development and implementation of a risk-informed and performance-
based regulatory approach.

               NRC must increase its safety and security focus on licensing and
               oversight activities through the application of a balanced
               combination of experience, deterministic models, and probabilistic
               analysis. This approach is known as risk-informed and
               performance-based regulation. Incorporating risk analysis into
               regulatory decisions is intended to improve the regulatory process
               by focusing NRC and licensee attention and actions on the highest
               risk areas.

               The issues related to this challenge and the agency’s actions to
               address each issue include the following:

               •    Issue: Ensure that the appropriate level of focus on risk-
                    informed and performance-based regulation is maintained.

                         –     Action: NRC is continuing its work to improve the
                               agency's Risk-Informed and Performance-Based Plan,4
                               including a recent expansion of the Plan's objectives to
                               more fully achieve a risk-informed and performance-
                               based regulatory structure.

               •    Issue: Develop and implement risk-informed and performance-
                    based regulation for fuel cycle facilities.

                         –     Action: NRC is preparing a framework for the fuel
                               cycle facility oversight program.

               •    Issue: Ensure that the Reactor Oversight Process meets the
                    agency’s regulatory needs.

                         –     Action: NRC uses results of an annual self-
                               assessment of the Reactor Oversight Process to better
                               identify significant performance issues and to ensure
                               that licensees take appropriate actions to maintain
                               acceptable safety and security performance.




4
 The Risk-Informed and Performance-Based Plan was formerly known as the Risk-Informed
Regulation Implementation Plan.


                                                   8
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




      •    Issue: Ensure that research programs enhance the validity of
           current risk models, and also develop risk insights for new
           technologies, including program areas now transitioning to risk-
           informed regulation (e.g., fire protection).

                –     Action: NRC is developing and implementing a formal
                      written process for maintaining probabilistic risk
                      assessment models that are sufficiently representative
                      of the as-built, as-operated plants to support model
                      uses.




                                          9
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 4
Ability to modify regulatory processes to meet a changing environment,
specifically the potential for a nuclear renaissance.

             While NRC maintains its core regulatory programs, it must adapt to
             emerging changes in the regulatory environment. Specifically, the
             agency must maintain the rigor of its regulation of the current fleet
             of operating reactors while simultaneously preparing for an influx of
             applications for new reactors. Furthermore, the agency must be
             ready to regulate facilities using new fuel processing technologies
             and address issues relating to the disposal of increasing quantities
             of radioactive waste.

             The issues related to this challenge and the agency’s actions to
             address each issue include the following:

             •    Issue: Maintain the ability to review operating reactor licensee
                  applications for license renewals and power uprates submitted
                  by industry in response to the Nation’s demand for energy
                  production.

                       –     Action: NRC is continuing its work with operating
                             reactor plant licensees to develop a schedule of
                             anticipated license amendment requests for license
                             renewals and power uprates.

             •    Issue: Develop and create the infrastructure necessary to
                  support the review of new plant licensing applications, to
                  include: reinstituting the Construction Inspection Oversight
                  program, developing strong control processes for project
                  management to ensure the agency meets its new reactor review
                  and licensing objectives, developing technical review processes
                  and ensuring that NRC implements a comprehensive standard
                  review plan and adequately documented safety evaluation
                  reports.

                       –     Action: NRC is preparing for the expected receipt of
                             utility applications for new reactor licenses. NRC is
                             issuing reactor design certifications, revising the
                             regulation that governs early site permits, and engaging
                             in ongoing interactions with plant vendors and utilities
                             regarding prospective new reactor applications and
                             licensing activities.




                                                 10
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




      •    Issue: Ensure that Agreement State programs are adequate
           and compatible with NRC’s program to protect public health and
           safety and the environment.

                –     Action: NRC continues to conduct about 10-12
                      reviews per year of Agreement State radioactive
                      materials programs under NRC’s Integrated Materials
                      Performance Evaluation Program.

      •    Issue: Address increasing quantities of radioactive waste
           requiring interim or permanent disposal sites.

                –     Action: NRC has conducted a review for dry cask
                      waste storage systems.
                –     Action: NRC is currently assessing its overall low-level
                      waste program to prioritize ongoing and future staff
                      actions and activities, along with associated schedules
                      and resource estimates.

      •    Issue: Prepare for and respond to delays and uncertainties
           related to its receipt and review of a DOE license application to
           construct a high-level radioactive waste repository at Yucca
           Mountain.

                –     Action: NRC continues to prepare for receipt of DOE’s
                      license application to construct a high-level waste
                      repository, which is expected in July 2008. NRC is
                      focused on pre-licensing activities, issuing interim staff
                      guidance, identifying the application review approach,
                      and identifying review teams.




                                          11
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 5
Implementation of information technology.

             NRC needs to upgrade and modernize its information technology
             (IT) capabilities both for employees and for public access to the
             regulatory process. Recognizing the need to modernize, the Office
             of Information Services established goals to improve the
             productivity, efficiency, and effectiveness of agency programs and
             operations, and enhance the use of information for all users inside
             and outside the agency.

             The issues related to this challenge and the agency’s actions to
             address each issue include the following:

             •    Issue: Ensure that information systems are protected.

                       –     Action: NRC has made little progress in correcting the
                             following two significant deficiencies concerning its
                             Information System-wide Security Controls. Annual
                             contingency plan testing is not being performed, and
                             only 2 of 30 systems have been assessed to determine
                             risks to agency operations, agency assets, or
                             individuals, resulting in a failing grade from Congress
                             for computer security. Although the agency is working
                             towards certification and accreditation for all of its
                             systems, the agency does not expect to accomplish this
                             goal until the end of FY 2009. Actions also include
                             awarding a multimillion dollar contract to enhance
                             agencywide information systems security, documenting
                             the process to complete certifications and
                             accreditations of systems and categorizing systems as
                             to sensitivity of the information.

             •    Issue: Upgrade and manage IT activities to improve the
                  productivity, efficiency, and effectiveness of agency programs
                  and operations.

                       –     Action: NRC recognizes that it lags behind many other
                             Federal agencies in terms of its IT infrastructure. For
                             example, the ability to support technologies such as
                             wireless and Microsoft Office suite, which is already the
                             standard software used in the private sector and much
                             of the public sector. In addition, the agency is
                             evaluating options for replacing its aging applications
                             such as the Agencywide Documents Access and


                                                 12
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                      Management System and Human Resources
                      Management System. The agency has developed an
                      information technology/information management
                      strategic plan that addresses infrastructure planning
                      and seeks a single, integrated infrastructure technology
                      roadmap as part of an overall enterprise architecture
                      transition plan.

      •    Issue: Maintain a knowledgeable information technology staff.

                –     Action: NRC is continuing to upgrade its IT
                      infrastructure to a state of the art level, therefore, NRC
                      must hire and retain staff who possess the required
                      expertise. NRC has initiated new workforce planning
                      strategies to address this, to include offering higher pay
                      grades/salaries for needed proficiencies, keeping
                      vacancy announcements indefinitely open to fill the
                      many vacancies, and paying relocation expenses.




                                          13
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 6
Administration of all aspects of financial management.

                NRC management is responsible for establishing and maintaining
                effective internal controls and financial management systems that
                meet the objectives of several statutes including the Federal
                Managers’ Financial Integrity Act. This Act mandates that NRC
                establish controls that reasonably ensure that (1) obligations and
                costs comply with applicable law; (2) assets are safeguarded
                against waste, loss, unauthorized use, or misappropriation; and (3)
                revenues and expenditures are properly recorded and accounted
                for. This Act encompasses program operational, and administrative
                areas, as well as accounting and financial management.

                The issues related to this challenge and the agency’s actions to
                address each issue include the following:

                •    Issue: Resolve the material weaknesses5 reported in the audit
                     of NRC’s financial statements and the issues related to licensee
                     fee reporting.

                          –     Action: NRC is addressing the continuing material
                                weakness by assessing all processes and system
                                interfaces associated with the fee billing process and
                                system to ensure controls are adequate. The agency
                                has implemented a number of new and improved
                                controls including a validation tool which analyzes and
                                reconciles the completeness and accuracy of billing for
                                reactors and materials inspections. As a result, the
                                agency has decreased the risk of potential billing errors
                                and further enhanced the control environment.

                          –     Action: NRC conducted a business process
                                improvement study focused on time and labor and fee
                                billing processes. The study made a number of
                                recommendations for improvement including the need
                                to corporately manage the reporting codes and to
                                reduce the number of reporting codes to improve
                                internal controls. As a result, the agency has

5
  FY 2006 financial statement internal control reportable conditions include a continuing material
weakness regarding the Fee Billing System and a new material weakness regarding lack of
required Information System-wide Security Controls. Discussion of the actions taken concerning
the latter reportable condition is contained in Challenge 5 - Implementation of information
technology.



                                                    14
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                               developed interim guidance for managing reporting
                               codes and expects to reduce the number of codes
                               (currently totaling approximately 9,500) by another
                               1,000 before year-end.

               •    Issue: Replace NRC’s current financial systems which are
                    obsolete, overly complex and inefficient.

                         –     Action: NRC has submitted a business case that
                               recommended the replacement of five aging financial
                               systems6 with a single integrated core financial system,
                               expected to be operational in October 2009.




6
 The five financial systems are Federal Financial System, Fee Billing System,
Allotment/Allowance Financial Plan System, Cost Accounting System, and the Capitalized
Property System.



                                                   15
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 7
Communication with external stakeholders throughout NRC regulatory
activities.

             The NRC has stated that nuclear regulation is the public’s business
             and, therefore, it should be transacted in an open and candid
             manner in order to maintain the public’s confidence. The
             continuing challenge for management is to ensure that there are
             effective ways of communicating with external stakeholders.
             Effective communication is vital to the agency’s ability to achieve its
             goals, to include enhancing the public’s confidence in NRC’s
             effectiveness as a regulator.

             The issues related to this challenge and the agency’s actions to
             address each issue include the following:

             •    Issue: Ensure effective interaction with a diverse group of
                  external stakeholders (e.g., industry, Congress, general public,
                  other Federal agencies, citizen groups) by providing clear,
                  accurate, and timely information about NRC’s regulatory
                  activities.

                       –     Action: NRC provides a quarterly report on the status
                             of its licensing and other regulatory activities to the
                             Senate Subcommittee on Clean Air and Nuclear Safety.

                       –     Action: NRC continues to hold public meetings
                             throughout the year, as well as, an annual public
                             Regulatory Information Conference on specific licensing
                             and regulatory activities to share information with
                             stakeholders.

             •    Issue: Ensure compliance with the Freedom of Information Act
                  (FOIA) regarding disclosure of information to the public, through
                  both FOIA requests and FOIA automatic disclosure
                  requirements, and timely responses to FOIA requests.

                       –     Action: NRC is implementing revised Internal
                             Commission Procedures to require a review of
                             Commission decision documents to determine whether
                             these documents should be released, in whole or in
                             part, in accordance with the automatic disclosure
                             provisions of FOIA.




                                                 16
            Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 8
Managing human capital.

                  NRC’s human capital needs will undergo changes due to the
                  expected receipt of (1) applications to construct and operate the
                  next generation of nuclear reactors, (2) DOE’s license application
                  for a nuclear waste repository, and (3) industry applications to
                  increase the number of fuel cycle facilities. By FY 2009, NRC will
                  have hired approximately 1,200 new employees. Moreover, a
                  United States Government Accountability Office report issued
                  January 2007,7 found that about 16 percent of NRC employees are
                  eligible to retire, a figure that is expected grow to 33 percent by
                  FY 2010.

                  The issues related to this challenge and the agency’s actions to
                  address each issue include the following:

                  •    Issue: Addressing anticipated increased workload demands
                       and retirements.

                            –     Action: NRC is recruiting a skilled workforce that
                                  targets the anticipated changes facing the agency.8
                                  The agency is on track to exceed its FY 2007 hiring
                                  goal of a net gain of approximately 200 staff.

                            –     Action: NRC is enhancing its reactor technology
                                  curriculum to meet the demand of its increased and
                                  varied workload which includes the review and licensing
                                  of the new generation of commercial nuclear reactors.

                            –     Action: NRC is implementing knowledge
                                  management9 strategies that include mentoring; early
                                  replacement hiring; rehiring annuitants with or without




7
 Human Capital: Retirements and Anticipated New Reactor Applications Will Challenge NRC’s
Workforce, GAO-07-105, January 17, 2007.
8
    As of the last pay period in July 2007, there were approximately 3,526 NRC staff.
9
 Knowledge management involves capturing critical information and making the right information
available to the right people at the right time to assure that knowledge and experience of the
current staff is passed on to the next generation of NRC staff.



                                                      17
           Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                 use of a pension offset as applicable;10 and developing
                                 a knowledge management website, expressly for the
                                 purpose of retaining knowledge before key employees
                                 are promoted or retire.

                           –     Action: NRC is working with the General Services
                                 Administration to acquire additional off-site office space
                                 near its headquarters, for up to 300 staff by the late
                                 summer of 2008. Furthermore, most NRC regional
                                 offices are seeking new office space for additional staff
                                 in order to meet increased workload demands.




10
  This flexibility allows NRC to rehire a retiree to fill a position at full pay if the agency has
experienced difficulty in filling a position, or if a temporary emergency exists.


                                                     18
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




IV.   CONCLUSION

            The eight challenges contained in this report are distinct, yet are
            interdependent to accomplishing NRC’s mission. For example, the
            challenge of managing human capital affects all other management
            and performance challenges.

            The agency’s continued progress in taking actions to address the
            challenges presented should facilitate successfully achieving the
            agency’s mission and goals.




                                                19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          20
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                                                                          Appendix A


SCOPE AND METHODOLOGY

          This evaluation focused on the IG’s annual assessment of the most
          serious management and performance challenges facing the NRC.
          The challenges represent critical areas or difficult tasks that warrant
          high level management attention. To accomplish this work, the
          OIG focused on determining (1) current challenges, (2) the
          agency’s efforts to address the challenges during FY 2007, and
          (3) future agency efforts to address the challenges.

          The OIG reviewed and analyzed pertinent laws and authoritative
          guidance. In addition, OIG conducted interviews with agency
          officials at NRC Headquarters and conducted interviews by
          telephone with agency officials in the four NRC regional offices.
          The purpose of the interviews was to identify current performance
          and management challenges and steps taken by the agency to
          address these challenges through planning and in daily operations.
          Since challenges affect mission critical areas or programs that have
          the potential to impact agency operations or strategic goals, NRC
          Commission members, the Executive Director for Operations and
          the Chief Financial Officer were afforded the opportunity to share
          any information and insights on this subject.

          OIG conducted this evaluation from June through August 2007.
          The major contributors to this report were Steven Zane, Team
          Leader, Beth Serepca, Team Leader, Sherri Miotla, Team Leader,
          Vicki Foster, Audit Manager, Michael Steinberg, Senior Auditor, and
          Lori Konovitz, Senior Analyst.




                                              21
